No. 20-7951

IN THE SUPREME COURT OF THE UNITED STATES

EDUARDO FLORES
Petitioner
v.
PETER M. HOAGLAND et al.
Respondents

ON PETITION FOR WRIT OF CERTIORARI TO THE CALIFORNIA
COURT OF APPEAL, FOURTH APPELLATE DISTRICT

SUPPLEMENTAL BRIEF FOR PETITIONER
Eduardo Flores
1128 Lemon Ave
El Cajon, CA 92020
edfloliger@gmail. com
(619) 765-7426

Self-Represented

TABLE OF CONTENTS
TABLE OF AUTHORITIES

2

SUPPLEMENTAL BRIEF

3

CONCLUSION

5

APPENDICES:

Supplemental Appendix A Email & Attached Letter from Opposing Counsel

1

A6

TABLE OF AUTHORITIES

STATUTES AND RULES
United States Constitution, 14th Amendment

2

42 U.S.C. § 12101(b)(1) (2012)

2

2

SUPPLEMENTAL BRIEF
Petitioner files this Supplemental Brief to bring to the Court’s attention another
intervening matter not available at the time of Petitioner’s last filing.
ARGUMENT
The petition asks the Court to consider whether the state Trial Court and the
California Court of Appeal, Fourth Appellate Division had a duty under the 14th
Amendment of the United States Constitution and the American with Disabilities Act of
1990 to provide accommodations to Mr. Flores, a disabled, self-represented litigant. The
Supplemental Brief provides evidence not previously available to Petitioner, which
supports Petitioner’s contention that the state Trial Court erroneously dismissed Mr.
Flores’ complaint after Opposing Counsel agreed to Mr. Flores filing a Third Amended
Complaint and the Trial Court approved the agreement.
Mr. Flores submits the following additional evidence in support of his Petition:
1. An email and letter dated February 16, 2018, from Attorney Richard V. Zavala,
attorney of record for Dr. Hoagland, in which opposing counsel acknowledges the
agreement that Mr. Flores would file a Third Amended Complaint. Supp. App. A.
This additional evidence was not available to Petitioner at the time of his last filing
as Mr. Flores had been locked out of email account and did not have access to these
documents. Prior to his last filing, Mr. Flores made multiple attempts to access this email

3

and attached document to no avail. After submitting his Petition, Mr. Flores was able to
gain access to this email and letter attachment.
The additional evidence demonstrates that on January 12, 2018, there was a verbal
agreement between the parties and the Trial Court that was not appropriately recorded.
The Parties and the Trial Court agreed that Mr. Flores would file a Third Amended
Complaint. The letter from Attorney Zavala explains that although Mr. Flores provided a
Second Amended Complaint, this complaint was still deficient, and a Third Amended
Complaint still needed to be filed as agreed. Since, the agreement at the January hearing
was not recorded, the Trial Court considered only Mr. Flores Second Amended
Complaint at the May 4, 2018, hearing and dismissed the action without leave to amend.
Mr. Flores being a man with a traumatic brain injury disability was left to explain
. the mix up to the court. Unfortunately, opposing counsel, Richard Zavala, was not
present in court on May 4, 2018, and the attorney present, Mr. Gabriel Benrudi, at the
hearing appearing in Mr. Zavala’s place was unaware of the agreement. Mr. Flores
suffering from significant cognitive defects due his disability was treated as if he made an
error when the error was that of the Trial Court. There was no minute order or transcript
that Mr. Flores could reference to refresh the Judge’s memory about the agreement to file
a Third Amended Complaint.
A written record, minute order, or transcript at all hearings would have
accommodated Mr. Flores and provided him and the Trial Court with the clear guidance
4

he needed to have his case heard on its merits. However, in California, accommodations
and even a request for a court reporter must be made upon request. This is not an easy
task for someone who suffers from mental deficits, as it requires that the person is aware
of such accommodations or their right to have an official court reporter.
CONCLUSION
The Trial Court grossly erred in this case and because Mr. Flores did not have
proper accommodations for his disability, he was not able to bring the Trial Court’s error
to light. People like Mr. Flores should not be denied justice due to disability. The Trial
Court has an obligation to provide equal access to justice and in this case the court failed.
For the foregoing reasons, petitioner requests that this Court grant the petition for
certiorari.
Respectfully submitted,

Dated: September 23,2021

At

J

Pro Se

5

o Flores

Additional material
from this filing is
available in the
Clerk's Office.

